No. 20-1313

 

In THE
Supreme Court of the United States

DIMITRI SHIVKOV, INDIVIDUALLY AND AS A TRUSTEE OF
THE PHOENIX 2010 REVOCABLE TRUST, ET AL.,

Petitioners,
v.

ARTEX Risk SOLUTIONS, INC. ET AL.,
Respondents.

ON PETITION FOR WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains

4,611 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 21, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
